           AUDIT OF
DOT’S RULEMAKING PROCESS
  AND TRACKING SYSTEM
    Department of Transportation

    Report Number: SC-2004-035
     Date Issued: March 2, 2004
           U.S. Department of
                                                             Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Report on DOT’s Rulemaking Process                                Date:    March 2, 2004
           and Tracking System
           SC-2004-035

  From:    Alexis M. Stefani                                                      Reply to
                                                                                  Attn. of:   JA-60
           Principal Assistant Inspector General
            for Auditing and Evaluation
    To:    Acting Deputy Secretary
           Chief of Staff
           General Counsel

           This report presents the results of the Office of Inspector General (OIG) audit
           of the Department of Transportation’s (DOT) Rulemaking Process and
           Tracking System. We conducted this audit as a followup to our 2000 report
           on the Department’s rulemaking process.1 This audit was also requested by
           Representative James L. Oberstar, ranking Democratic member of the House
           Committee on Transportation and Infrastructure.

           Our objectives were to determine: (1) how many rulemaking actions were
           completed on schedule, how many were completed behind schedule, and how
           many were not completed; and (2) for rules that were delayed, where the
           longest delays occurred (e.g., at the Operating Administrations, General
           Counsel, or Office of Management and Budget) and the length of those
           delays.

           This report covers DOT’s overall record in meeting its deadlines for
           significant rules during the period January through June 2003. We plan on
           issuing a second report covering the period July 2003 through June 2004. Our
           audit scope and methodology are discussed in Exhibit A.


           1
               “Report on the Department of Transportation’s Rulemaking Process,” OIG Report Number MH-2000-109,
               July 20, 2000.
                                                                                   2




RESULTS IN BRIEF
In response to congressional concerns, we conducted a review of DOT’s
rulemaking process and issued our report in July 2000. That report found that
significant rulemaking delays could be avoided or reduced if senior officials
had a mechanism to identify problems. One of our recommendations for
improvement called for the development of a departmentwide rulemaking
tracking system. We also found that DOT took an average of 3.9 years to
issue a significant rule in 1999, which was an increase over its 1993 level of
2.3 years.

In April 2001, we provided DOT management with an update of DOT’s
rulemaking activities, which identified the 11 oldest open rulemakings
(ranging from 11.7 to 20 years old) and 19 congressionally mandated rules,
which were overdue by an average of 6.6 years.

Our current review of DOT’s rulemaking activities and key metrics indicates
that DOT is making progress, but there is still room for improvement. As
recommended, DOT implemented a departmentwide rulemaking tracking
system with internet reporting capabilities in October 2002. In response to
this audit, DOT pointed out that, given a relatively small number of rules,
issuing very old rules increases the overall average time to complete rules.
Because DOT did issue old rules in 2003, we portray the average with and
without the oldest rules. Including the old rules, DOT’s 2003 average was
3.0 years. Removing the rules over 8 years old drops the average to 1.7 years.
For comparison purposes, we adjusted the 1999 average by removing the three
rules over 8 years old from the rules issued in 1999, which decreased that
average from 3.9 years to 2.6 years.

Of DOT’s 11 oldest rules in 2001, 9 rules have been issued or withdrawn, but
8 additional rules are now 11.7 years or older, for a current total of 10 rules.
In addition, the congressionally mandated rules that are overdue decreased
from 19 to 13 but are overdue by an average of 8.5 years, compared to an
average of 6.6 years in 2001. In part, rules were delayed as a result of DOT
addressing emergency concerns raised by the September 11, 2001 terrorist
attacks and handling several motor carrier and highway traffic safety
legislative requirements.

The overriding reason for DOT’s progress has been the attention given to
rulemaking by the highest levels of DOT’s management, namely the
Secretary, Deputy Secretary, Chief of Staff, and General Counsel. The
                                                                                                               3




implementation of the rulemaking tracking system was also a major
contributing factor to DOT’s progress. However, it is essential that DOT’s
senior management continue to provide priority attention to rulemaking
activities.

Rulemaking is a fluid process, and the number of rules in process at any point
continually changes—the number increases as new rules are initiated and
decreases as rules are issued or withdrawn. Therefore, this review is a
snapshot of DOT’s rulemaking performance in the first 6 months of 2003. At
this time, it is too early to determine the full extent of the effectiveness of
DOT’s initiatives because of insufficient data on which to base such
determinations (e.g., all Operating Administrations were not represented in
our 6-month universe of rules) and the initiatives are simply too new to
demonstrate a clear impact.

The size of DOT’s rulemaking workload is considerable—93 significant
rulemakings were pending on June 30, 2003. These rules were in various
stages of the rulemaking process. During this review we observed that of
those 93 significant rules, 56 (60 percent) had already missed the estimated
issuance dates for their current stages. The basic rulemaking stages are
Notice of Proposed Rulemaking (NPRM), Supplemental NPRM, and Final
Rule; other stages include Advanced NPRM and Interim Final Rule.

For each stage of a rulemaking, there are a series of internal steps, called
milestones, that must be completed before a rulemaking is issued. Milestones
include such steps as submission of the rulemaking to DOT’s Office of the
Secretary and submission to the Office of Management and Budget (OMB).
These milestones culminate in publication of the rulemaking in the Federal
Register.

Of the 93 rules in process during our audit, 68 had internally established
milestone dates between January 1 and June 30, 2003. For these 68 rules:
21 rules (31 percent) completed their milestones by the estimated dates,2
33 rules (48 percent) did not complete their milestones, and 14 rules
(21 percent) completed the milestones but did not complete them by the
estimated dates.




2
    Given that some milestone dates were estimated 6 months ahead of time, we considered that the milestones
    were met if the actions were completed within 14 calendar days of the target dates.
                                                                                   4




Therefore, DOT must continue to focus its attention on the rulemaking
process. In addition to continuing the highest level of management oversight,
DOT needs to devote further management attention to the following areas:

   • Requiring that the new rulemaking tracking system has accurate data
     and is used as a management tool by the Operating Administrations.
     We found the data in the departmental tracking system were not always
     complete and not all Operating Administrations were using the tracking
     system.

   • Modifying the tracking system so mid-course adjustments can be made
     for rules that are behind schedule or have missed their initial issuance
     dates. For example, rules that have missed their originally scheduled
     issuance dates may be on track to meet the revised dates, and this
     should be reflected in the tracking system.

   • Ensuring that its oldest pending rules are reviewed to determine
     whether they should remain ongoing rulemakings or be terminated.
     For example, we found that DOT is not actively working on three rules.
     DOT needs to review its old rules to determine if issuing rules on those
     subjects is still relevant, given the time that has passed since the rules
     were first considered.

   • Ensuring that the Operating Administrations analyze the ages of their
     pending rulemakings in order to focus their efforts on completing the
     oldest rules.

DOT Corrective Actions
DOT generally agreed with our recommendations and has already begun
taking corrective actions in response to our audit. They, however, took
exception to our use of averages in discussing the length of time to complete
rules. We agree that given the number of rules reviewed, averages are skewed
by including the times it took to complete very old rules, but at the same time,
we believe averages provide a useful perspective. Therefore, as a result of
their comments, we adjusted Table 1 to show both averages—the averages for
all rules completed and the averages with the oldest rules removed.
Management’s comments and our responses are provided on pages 17 through
19. The complete text of management’s comments is in the Appendix.
                                                                                   5




BACKGROUND
By issuing rules, DOT establishes transportation policy and requirements for
the transportation industry in the areas of safety, mobility, economic growth,
environment, and national security. A need for rulemaking can be identified
internally by DOT or externally, such as by Congress or the National
Transportation Safety Board. DOT’s rulemaking process usually begins with
a rule proposal that assesses the impacts on society or industry and ends with a
Final Rule published in the Federal Register.3 Under Executive Order
Number 12866, “Regulatory Planning and Review,” dated September 30,
1993, “each agency shall develop its regulatory actions in a timely fashion.”

A significant rule is one that is costly (usually over $100 million),
controversial, or of substantial public interest. The number of significant
rulemakings that DOT is processing or working on at any time frequently
changes. The number of rules in process decreases as rules are issued or
withdrawn, and the number increases as new rules are initiated. Further, as
events change, some rules are changed from significant to nonsignificant. We
obtained and analyzed data for all 93 significant DOT rulemakings in process
during the first 6 months of 2003. In this report, we update data that were
originally provided in our July 2000 report.

In response to our prior recommendation, DOT initiated development of a
rulemaking tracking system and began entering data in the spring of 2001. In
October 2002, DOT completed the system’s phase that provided internet
reporting capabilities. This system provides the status of DOT’s significant
rulemakings and their milestones for each stage. In addition, the system uses
a color-coding scheme to indicate the status of a rule’s schedule for each
rulemaking stage. Rules are coded green, yellow, red, or black. Green
designates that the rule is on track to meet its originally scheduled issuance
date for that stage (e.g., NPRM); yellow means the rule is not likely to meet
its original schedule; red indicates the rule is behind schedule; and black
means the rule does not yet have a schedule.

RESULTS
Our current review of the key metrics for rulemaking indicates that DOT is
making progress, but there is still room for improvement. For 2003, DOT’s
average time to completion was 3.0 years for all rules, and without the
four rules over 8 years old (the oldest rules), DOT’s average was 1.7 years.

3
    Final Rules are subsequently published in the Code of Federal Regulations.
                                                                                  6




For comparison purposes, we adjusted the 1999 average by removing the three
rules over 8 years old from the rules issued in 1999, which decreased that
average from 3.9 years to 2.6 years.

In April 2001, we provided DOT management with an update of DOT’s
rulemaking activities, which identified the 11 oldest open rulemakings and
19 congressionally mandated rules. Of DOT’s 11 oldest rules in 2001
(11.7 years or older), 9 have been issued or withdrawn, but 8 additional rules
are now 11.7 years or older, for a current total of 10 rules. Further, the
congressionally mandated rules that are overdue decreased from 19 to 13, but
they are overdue by an average of 8.5 years, compared to an average of
6.6 years in 2001.

The overriding reason for DOT’s progress has been the priority attention
given to rulemaking by the highest levels of DOT’s management, namely the
Secretary, Deputy Secretary, Chief of Staff, and General Counsel. The
Secretary has taken an active interest in improving DOT’s rulemaking process
and has emphasized to senior DOT managers the need to ensure that rules are
completed in a timely manner or that problems and issues causing delays are
identified and fixed. For example, on August 12, 2003, the Secretary issued a
memorandum to all Operating Administrators reminding them of the
importance he places on the timely completion of rulemakings. Further, a
major DOT action to improve the rulemaking process was the implementation
of the intranet-based tracking system, called the Rulemaking Management
System. The tracking system captures all significant DOT rules and produces
management reports that provide the subject matter, milestones, and status of
each rulemaking.

A direct result of this senior level oversight was the July 24, 2003 withdrawal
or termination of 53 unnecessary rulemakings (including 3 significant rules)
that had been pending for years without action. Further, since our July 2000
report, DOT has issued a number of complex or controversial rules. For
example, the National Highway Traffic Safety Administration (NHTSA)
issued 13 of the 15 rules required by the 2000 Transportation Recall
Enhancement, Accountability, and Documentation (TREAD) Act.

Notwithstanding the above advancements, our audit disclosed that the highest
levels of DOT management must continue focusing on the timeliness of
rulemaking. The oldest pending rules should be reviewed to determine
whether they should remain rulemakings or be terminated (e.g., for
congressionally mandated rules, DOT should seek legislation to amend or
                                                                                                         7




cancel the requirement). In addition, DOT must improve the data in the
tracking system and ensure the Operating Administrations are using the data
to effectively manage the rulemaking process.

DOT Has Made Progress in Issuing Significant Rules,
Including Congressionally mandated Rules
Significant Rules. Our review found that DOT is making progress in
completing its significant rules. Table 1 provides the number of completed
rulemakings in 2003 and the average time to complete those rules. The
“Total – All Rules” columns of Table 1 show all rulemakings completed
between October 1, 2002, and September 30, 2003, and their average times to
completion. For the last two columns, we removed the four “aged”
rulemakings (between 8 and 14 years old). This recognizes that, as DOT
clears out its old rules, the “average time to complete” increases.

           Table 1. Significant Rules Completed in 2003 a/
                              by Operating Administration
                                                                  Rules – Not Including
                                Total – All Rules                                         c/
                                                                     “ Ag e d ” R u l e s
                 b/
      Agency                              Average Time                         Average Time
                            No. of                               No. of
                                           to Complete                          to Complete
                            Rules                    d/          Rules                       d/
                                             in Yrs.                              in Yrs.
  FAA                           8                2. 9                7                  2. 1
  F HW A                        3                2. 0                3                  2. 0
  FM CS A                       2                4. 5                2                  4. 5
  RS P A                        1                0. 9                1                  0. 9
  NHT S A                       9                2. 0                8                  1. 0
  FRA                           2                2. 4                2                  2. 4
  FTA                           2                7. 2                1                  0. 6
  BT S                          1                0. 9                1                  0. 9
  O ST                          2                7. 1                1                  0. 1
  T O T AL                     30                                  26
  AV E R AG E                                    3. 0                                   1. 7
 a/ These significant rules represent a “snapshot” of rulemaking activities, as cited in DOT’s reports
    on significant rules between October 2002 and September 2003.
 b/ The agencies are the Federal Aviation Administration (FAA), Federal Highway Administration
    (FHWA), Federal Motor Carrier Safety Administration (FMCSA), Research and Special
    Programs Administration (RSPA), National Highway Traffic Safety Administration (NHTSA),
    Federal Railroad Administration (FRA), Federal Transit Administration (FTA), Bureau of
    Transportation Statistics (BTS), and Office of the Secretary (OST).
 c/ For these two columns, we removed the four oldest, or “aged,” rules, i.e., those over 8 years old.
 d/ The times to complete rules were calculated from the first official action dates (e.g., NPRM or
    ANPRM) to the completion dates.
                                                                                                      8




Comparing the 2003 data to 1999 data in Table 2 shows that DOT has
improved by increasing the number of completed rules (30 in 2003 compared
to 19 in 1999) while decreasing the average time to complete rules (3.0 years
in 2003 compared to 3.9 years in 1999). Removing the three rules over
8 years old from the 1999 calculations decreased DOT’s average to 2.6 years.


   Table 2. Significant Rules Completed in 1993 and 1999 a/
                              by Operating Administration

                                         1993                                 1999
         Agency                           Average Time                          Average Time
                             No. of                                No. of
                                           to Complete                           to Complete
                             Rules                   b/            Rules                   b/
                                             in Yrs.                               in Yrs.
    FAA                          8               1. 5                3                  3. 0
    FHW A/FMC S A                3               0. 4                3                  2. 3
    RS P A                       3               1. 6                3                  5. 9
    NHT S A                     10               2. 8                4                  3. 7
    FRA                          2               2. 8                1                  2. 9
    FTA                          2               2. 3                1                  0. 3
    BT S                         0              N/ A                 1                  3. 6
              c/
    US CG                        5               2. 1                0                 N/ A
    O ST                         2               6. 6                3                  6. 6
    T O T AL                    35                                  19
    AV E R AG E                                  2. 3                                   3. 9
 a/ These significant rules represent a “snapshot” of rulemaking activities, as cited in the spring
    and fall Semiannual Regulatory Agendas in 1993 and 1999. In response to comments from
    DOT’s Office of General Counsel, we adjusted the numbers from our July 2000 report to
    remove anomalous rulemakings for purposes of computing average times to complete rules.
    For example, for 1993 we previously included the Federal Aviation Administration’s
    completion of eight intended rulemakings that were simply removed from the Regulatory
    Agenda; because these had no starting dates or actual time spent on them, they were
    assigned zero time values for computing the average time to complete.
 b/ The times to complete rules were calculated from the first official action dates (e.g., NPRM
    or ANPRM) to the completion dates.
 c/ The U.S. Coast Guard (USCG) transferred to the Department of Homeland Security on
    March 1, 2003.




Congressionally Mandated Significant Rules. Our current review also
found that DOT showed improvement in meeting its statutory deadlines. For
the period January 1 through June 30, 2003, DOT met the deadlines for
27 percent (6 rules) of the 22 significant rules with statutory deadlines. This
compares favorably to meeting only 10 percent (4 rules) of its 41 deadlines in
1999 and 16 percent (10 rules) of 64 deadlines in 1993. Figure 1 compares
                                                                                                9




DOT’s success in achieving statutory deadlines in 6-month periods in 1993,
1999, and 2003.



       Figure 1. Comparison of Significant Rules with
       Statutory Deadlines in 1993, 1999, and 2003 a/

                                                            27
                       Deadline Met               10
                                                     16
                                                    14
   Completed But After Deadline                        20
                                                     17
                                                                               59
                     Not Completed b/                                                 71
                                                                                    67

                                          0            20        40          60            80
                                          Percentage of Rulemaking Actions

                                                       2003      1999       1993

    a/ Federal Register, October 25, 1993, and November 22, 1999; and OIG audit for the
       period January 1 – June 30, 2003.
    b/ For the 13 rules that were “Not Completed” as of June 30, 2003, all of their statutory
       deadline dates had passed.




DOT Needs to Continue to Focus on the Timeliness of
Rulemaking
Since 1999, DOT has made progress in meeting the deadlines for issuing Final
Rules and NPRMs and in promulgating several difficult and complex rules.
The overriding reason for DOT’s rulemaking progress has been the priority
attention given to rulemaking by the highest levels of DOT’s management.
However, the Operating Administrations continue to miss milestones, and
DOT needs to continue to work on reducing the number of old rulemakings.

To meet the issuance dates, the Operating Administrations establish dates for
each of the key steps, or milestones, that must be completed for each stage
(e.g., Final Rule or NPRM) prior to issuance. For example, an Operating
Administration establishes and enters into the tracking system the key
milestone dates by which it estimates a Final Rule or NPRM: (1) will be sent
                                                                                                               10




to OST, (2) will be cleared by OST and sent to OMB, (3) will be cleared by
OMB, and (4) will be published in the Federal Register.

Milestone Dates Were Missed. Of the 93 rules in process during our
audit, 68 had milestone dates between January 1 and June 30, 2003. For these
68 rules: 21 rules (31 percent) completed their milestones by the estimated
dates,4 33 rules (48 percent) did not complete their milestones, and 14 rules
(21 percent) completed the milestones but not by the estimated dates. Figure
2 shows the breakdown by Operating Administration of the rules that met and
did not meet milestones during the period January 1 through June 30, 2003.

                               Figure 2. Milestone Status
                              by Operating Administration
              30




              20        8

       Number
       of Rules                         1
                       13              13                        4
              10
                                                                 9                     Milestone Status
                                3                                             4
                                                                                             Met
                                4                1                            3
                  0                              2       2              1                    Did Not Meet
                       FAA            FMCSA            MARAD            OST
                              FHWA              FRA             NHTSA         RSPA

                                            Operating Administrations




Our review of the 47 rules that missed their estimated milestone dates showed
that all the delays, except for 1 rule that was delayed at OMB, occurred within
the Operating Administrations and OST. For example, a motor carrier rule
concerning commercial drivers’ vision requirements was delayed because the
FMCSA staff was directed to work on higher priority issues after the
September 11, 2001 terrorist attacks. The delays of the 47 rules ranged from
15 days to 180 days. We found rules were delayed for a variety of reasons.
The following are the three major categories of reasons for the rules being
delayed:


4
    Given that some milestone dates were estimated 6 months ahead of time, we considered that the milestones
    were met if the actions were completed within 14 calendar days of the target dates.
                                                                                                                      11




      • 11 rules were delayed so staff could work on higher priority rules or
        other issues.
      • 9 rules were delayed due to unforeseen problems coordinating these
        rules with other agencies.
      • 6 rules were delayed due to data problems or the need for further
        studies or analyses to improve the integrity of the data.

Milestone Dates Were Reasonable and Provide Appropriate
Targets for Issuing the Rules. We reviewed the estimated milestone
dates established by the Operating Administrations and found them to be
reasonable. Although the Operating Administrations missed 69 percent of
these dates, we found that these dates provided appropriate targets for getting
the rules completed.

Backlog of Old Rules Continues. Our audit included reviewing DOT’s
progress in completing the oldest rules5 and rules with congressional
deadlines. We found that some progress had been made in these areas but that
more should be done.

Since our April 2001 report, 9 of the 11 oldest rules were issued or withdrawn
(this number includes the 3 rules withdrawn on July 24, 2003, which was after
our audit period). However, eight other rules are now 11.7 years or older and
have been added to the list of the oldest rules. Thus, there are now
10 significant rules 11.7 years or older. Table 3 provides the 10 rules that are
11.7 years or older and the next 4 oldest rules, which are more than 10 years
old. During our next review, we will track DOT’s progress in completing
these 14 old rules.




5
    We expanded this list, from the previous cut-off of more than 11.7 years old, to identify all significant rules
    over 10 years old.
                                                                                                   12




                  Table 3. Oldest Open Significant Rules
                                      As of July 2003
                                                                                 Start     Years
Rank     Agency                                Title
                                                                                 Date      Open
                     Retrofit of Improved Seats in Air Carrier Transport
  1        FAA                                                                  12/30/87   15.5
                     Category Airplanes
                                                   a/
  2        FAA       Drug Enforcement Assistance                                11/18/88   14.6
                     Commercial Driver’s License (CDL) Standards;
  3      FMCSA                            a/                                    11/18/88   14.6
                     Biometric Identifier
                     Accessibility of Passenger Vessels to Individuals with
  4        OST                                                                  7/26/90    12.9
                     Disabilities
                     Safeguarding Food From Contamination During
  5       RSPA                  a/                                              10/21/90   12.7
                     Transport
                                                        a/
  6      FMCSA       Hazardous Materials Permitting                             11/16/90   12.6

  7      FMCSA       Safety Performance History                                 11/16/90   12.6

  8      FMCSA       Qualifications of Drivers; Vision                           2/1/91    12.4

  9        FAA       Aging Aircraft Safety                                      10/28/91   11.7

 10        FAA       Corrosion Prevention and Control Program                   10/28/91   11.7
                                                         a/
 11      FMCSA       Training for Entry-Level Drivers                           12/18/91   11.5
                                                                     a/
 12      FMCSA       Longer Combination Vehicle (LCV) Training                  12/18/91   11.5
                                                                a/
 13       RSPA       Response Plans for Onshore Oil Pipelines                   4/12/92    11.2
                      Commercial Driver’s Physical Fitness as Part of the CDL
 14      FMCSA                                                                  7/15/93    10.0
                      Process
a/ These rules also have congressionally mandated deadlines.



Under a February 2003 settlement agreement between DOT and public
interest groups, Final Rules for four of the above congressionally mandated
rulemakings (Rules 6, 7, 11, and 12 in Table 3) are required by June 2004.
We found that DOT was not actively working on three rules (Rules 2, 3, and 4
in Table 3). For example, Congress directed FAA to issue a rule that would
assist in drug enforcement efforts by requiring various certifications and
background checks of general aviation aircraft owners. FAA has addressed all
but one issue—requiring a 90-day waiting period before owners may operate
newly acquired aircraft. FAA plans on asking Congress to cancel this
requirement because of the additional burden it will place on the already
stressed general aviation industry. The Office of General Council commented
that, although staff may not be actively working on a rulemaking, the
                                                                                                                  13




underlying issue was being addressed in other ways. For example, for Rule 4
in Table 3, DOT is waiting on relevant physical accessibility standards to be
issued by the US Access Board.6 Once those standards are issued, DOT will
actively proceed with the rulemaking.

We are recommending DOT review its old rules at least yearly and determine
whether issuing rules on those subjects is still relevant, given the time that has
passed since the rules were first considered.

As of July 2003, DOT had 40 rules that had been open 5 years or longer.
Table 4 provides the breakdown by Operating Administration of the 40 rules.

             Table 4. Significant Rules Open 5 Years or More
                                by Operating Administration
                                                     a/
                                     As of July 2003

                                                 Number of             No. of Rules Open
                         Agency
                                                 Rules Open             5 Years or More
                        FMCSA                         23                        13
                         FAA                          28                        12
                         OST                           7                         4
                        FHWA                           6                         4
                         RSPA                          7                         3
                        NHTSA                         13                         1
                         FRA                           4                         2
                       MARAD b/                        2                         1
                         FTA                           0                         0
                        TOTAL                         90                        40
                   a/ From the 93 rules, we removed the 3 rules that were withdrawn on
                      July 24, 2003, shortly after our audit period.
                   b/ Maritime Administration



Regarding the rules with congressionally mandated deadlines, we found the
number of these rules that were overdue decreased by 6, from 19 rules in
April 2001 to 13 rules in July 2003. However, the average length of time the
rules were overdue increased from 6.6 years in 2001 to 8.5 years in 2003.
Table 5 lists the 13 overdue congressionally mandated rules.


6
    The Access Board is an independent Federal agency devoted to accessibility for people with disabilities. It
    operates with a board of representatives from Federal departments and public members appointed by the
    President.
                                                                                                        14




             Table 5. Overdue Congressionally Mandated Rules
                                          As of July 2003

                                                             Required         Original         Years
Rank          Agency                   Title
                                                              Action          Deadline        Overdue
     1       FAA         Drug Enforcement Assistance         Final Rule      09/18/1989          13.8
                         CDL Standards; Biometric
     2       FMCSA                                           Final Rule      12/31/1990          12.5
                         Identifier
                         Safeguarding Food From
     3       RSPA        Contamination During Transport
                                                             Final Rule      08/01/1991          11.9
                         Hazardous Materials
     4       FMCSA                                           Final Rule      11/15/1991          11.6
                         Permitting
                         Response Plans for Onshore Oil
     5       RSPA        Pipelines
                                                             Final Rule      08/18/1992          10.9
                         Training for Entry-Level
     6       FMCSA                        a/                   NPRM          12/18/1992          10.5
                         Drivers – NPRM
                         Training for Entry-Level
     7       FMCSA                            a/             Final Rule      12/18/1993          9.5
                         Drivers – Final Rule
     8       FMCSA       LCV Training Rule                   Final Rule      12/18/1993          9.5

     9       FMCSA       Railroad-Highway Crossing           Final Rule      02/16/1995          8.4

 10          FMCSA       Unified Registration Process        Final Rule      01/01/1998          5.5
                         Safety of Small, Passenger-
 11          FMCSA       Carrying Commercial Vehicles
                                                             Final Rule      12/09/2000          2.6
                         Whistle Bans at Highway-
 12          FRA                                             Final Rule     07/01/2001b/         2.0
                         Rail Grade Crossings
                         Part 139 - Certification of
 13          FAA                                             Final Rule      11/03/2001          1.7
                         Airports
a/       For the rulemaking on Training for Entry-Level Drivers, Congress stipulated deadlines for
         both the NPRM and Final Rule.
b/       In 2000, Congress passed legislation prohibiting this Final Rule from being published before
         07/01/2001.


Our findings regarding the number of old rules and the length of time they
were overdue demonstrate the need for DOT senior officials to continue to
focus on reducing the number of old rules and overdue congressionally
mandated rules. In our next review, we will continue to follow DOT’s
progress in issuing or completing these rules.

Tracking System Data and Use Can Be Improved
While the Operating Administrations establish milestone dates and enter the
dates and other data into the tracking system, we found they were not entering
timely and complete information into the tracking system.             Of the
                                                                                                15




93 significant rulemakings open as of June 30, 2003, 20 rules (22 percent)
either had no internal schedule or milestone dates (15 rules) or the milestone
dates had already passed (5 rules). Further, of the 47 rules that missed their
milestones as of June 30, 2003, the reasons for the delays were not explained
in the tracking system for 27 rules (57 percent).

We also found that the Operating Administrations were not using the tracking
system as a management tool. Each Operating Administration had some form
of internal system or process that it continued to use, rather than relying on the
tracking system. These processes ranged from manual reports to automated
systems. Operating Administration officials rely on their own processes for
monitoring rules, and they view the departmental tracking system primarily
for use by OST to monitor and track rules. The Secretary, in his August 12,
2003 memorandum, stated that the Operating Administrators are to use the
departmental tracking system to monitor their rules.

One reason for the lack of use is that the color-coded status system as
implemented does not help the Operating Administrations or senior managers
direct or prioritize their rulemaking efforts. For example, once a rule misses
its original target date for issuance and goes into the red category, it stays red
until completion of that stage, even if milestone dates are revised and then
met. For rules that have missed their original issuance dates, DOT managers
need a mechanism to monitor and track the progress of these rules against the
revised target dates.

As shown in Table 6, the majority (55) of rules being tracked in the tracking
system were red.

           Table 6. Status by Color Code of Rules Open
                                   As of July 2003 a/

                                                             Number of          Percent of
     Status Color                Description                   Rules              Total
        Green              On schedule                           17               19%
        Yellow             May miss target date                    2               2%
        Red                Missed target date                    55               61%
        Black              No schedule                           16               18%
         Total                                                   90              100%
   a/ From the 93 rules, we removed the 3 rules that were withdrawn on July 24, 2003, shortly
     after our audit period.
                                                                                    16




Rules miss their target dates for numerous reasons. For example, the terrorist
attacks of September 11, 2001, resulted in a significant change in the
Department’s priorities. When rules miss their original target dates, senior
managers need a mechanism to acknowledge progress in meeting the new
deadlines that they have established. The mechanism should also provide
management with a means to set priorities or focus attention on rules that are
at risk of missing the revised target dates. DOT could reflect progress and the
current status of rules by revising the color-coding scheme or by providing a
separate tracking system report that would indicate the rule’s next target date
and progress in meeting that revised date.

OST has taken a significant first step by developing, populating, and
implementing the tracking system. Now OST should ensure that timely and
complete data are entered into the system to help senior officials to effectively
manage and oversee the rulemaking process. With timely and complete data,
the tracking system would be a better management tool to set priorities for
completing rulemakings in a timelier manner.

DOT’s Performance Plan
In our July 2000 report, we recommended that DOT develop rulemaking
performance measures for its Performance Plan. However, DOT’s current
Performance Plan does not have any performance measures regarding
rulemaking activities. Annual Performance Plans including appropriate
performance measures are required of all agencies by the Government
Performance and Results Act. We maintain that having a rulemaking
performance measure would emphasize the importance the Department is
placing on its goal of timely rulemaking and would provide further visibility
of DOT’s progress in meeting that goal. Therefore, the recommendation from
our July 2000 report is still open.

RECOMMENDATIONS
To address the above issues, we recommend that the Acting Deputy Secretary
and Chief of Staff:

   1. Require compliance with the directives stated in the Secretary’s
      August 12, 2003 memorandum, which instructed Operating
      Administrators to input reliable data into the tracking system and to use
      the tracking system to monitor their rules.
                                                                                 17




   2. Modify the tracking system so mid-course adjustments can be made for
      rules that have missed their original target dates for issuance.

   3. Direct Operating Administrators to review the oldest pending
      rulemakings (those over 10 years old) to determine whether they
      should remain ongoing rulemakings (e.g., for congressionally
      mandated rules DOT should either petition Congress to cancel the
      requirement or withdraw the rulemaking).
   4. Direct Operating Administrators to analyze the age of their pending
      rulemakings in order to focus their efforts on completing the oldest
      rules.

MANAGEMENT COMMENTS AND OIG RESPONSE
A draft of this report was provided to the Acting Deputy Secretary, Chief of
Staff, and General Counsel on December 31, 2003. On February 3, 2004, the
Deputy General Counsel replied for management generally agreeing with all
our recommendations and providing the following comments. (See the
Appendix for the complete text of the comments.) The actions taken and
planned are responsive to our recommendations.

General Comments. While DOT officials were pleased with its rulemaking
progress to date, they recognized the potential for further improvement and
are continuing to fine-tune their processes. They did not expect modifications
to the existing draft, but they commented that some data presented in the
report could cause misunderstandings about DOT’s rulemaking progress and
successes. Examples of their comments regarding the data are:

   • Averages are an inappropriate measurement of the effectiveness of
     DOT’s rulemaking procedures, and the number of rulemakings
     identified in the report is too small for meaningful averages.
   • Comparisons of the time from the issuance of the first rulemaking
     notice (e.g., an NPRM) to the issuance of the final action are also not
     meaningful; if a proposal is to be done well, a great deal of work must
     be done before the NPRM. DOT’s tracking system includes the
     “initiation date” date for each rulemaking, which would allow the use
     of consistent, appropriate data for each rulemaking in the future.

As a result of their comments, we removed from our calculations the old rules,
which would have resulted in higher averages, because we recognized that it
is important for DOT to complete its oldest rules. We therefore adjusted
                                                                                   18




Table 1 to show both averages—the averages for all rules completed and those
with the rules over 8 years old removed. We believe it is informative to
provide these adjusted averages as simple comparisons of how long it took the
Department and each Operating Administration to issue final rules in 1993,
1999, and 2003. Further, we agree that use of the “initiation date” provides a
better indicator of the time taken to issue rules, and we will consider this in
our future work. However, the initiation dates were not available for rules
completed in 1993 and 1999, thus we were unable to analyze that data for this
report.

Recommendation 1. Concur. DOT has already taken a number of steps to
comply with the directives stated in the Secretary’s August 12, 2003
memorandum. These steps included remarks by the Secretary in a subsequent
meeting with all senior DOT officials and regular meetings held by the Chief
of Staff and Deputy Secretary with the individual Operating Administrations
to discuss specific compliance issues. These actions will be conducted on a
continuing basis to help ensure the timeliness of DOT’s rulemakings.

Recommendation 2. Concur in part. DOT has taken steps to ensure that
the rulemaking tracking system is used as effectively as possible, including
using the system to better evaluate rulemaking progress. This requires only
analytical and management action and does not require a modification to the
tracking system itself. The status of each significant rule is reviewed at least
monthly. If the agency continually changes its projected dates to later dates,
fails to meet projected dates, or is generally not taking reasonable action to
complete the rulemaking in a timely manner, the General Counsel raises the
issue directly with senior officials. The General Counsel also schedules
regular meetings with the Chief of Staff, Deputy Secretary, and individual
Operating Administrations. One of the purposes of these meetings is to
address any scheduling problems or delays. These matters may also be raised
as part of regular reports to the Secretary. These actions will be conducted on
a continuing basis.

Recommendation 3. Concur. At the beginning of 2003, DOT developed a
list of pending rulemakings, presenting them in order of their age. Senior
DOT officials, including the Deputy Secretary, then met to discuss what
action should be taken on each one. That review generated significant action
on the old rulemakings, including a notice published in the Federal Register
on July 24, 2003, withdrawing or terminating 53 rulemakings. The Deputy
General Counsel stated that the rules OIG identified as ones DOT is not
actively working on were in fact being “worked on” as a result of this review.
DOT may not have been drafting a withdrawal notice or final rule, but DOT
                                                                                 19




was working to get a legislative fix or to get another agency to act so that
DOT could proceed. Actions to address the oldest pending rulemakings will
be conducted on a continuing basis.

Regarding the Deputy General Counsel’s comment to recommendation 3, OIG
recognizes that DOT had been at least considering alternatives to address each
of the intended rulemakings’ issues. However, we maintain that DOT was not
actively working on the particular rulemakings.

Recommendation 4. Concur in part. DOT plans to keep the list discussed
under recommendation 3 up-to-date, so that attention may continue to be
focused on the older rulemakings, as appropriate, in the regulatory review
meetings. DOT does not agree, however, that efforts should be focused on
completing the oldest rules.     A number of reasons arise, including
emergencies, which may require efforts to be focused on completing other
rulemakings. Actions to address the oldest pending rulemakings will be
conducted on a continuing basis.

ACTION REQUIRED
The actions taken and planned by DOT are responsive to our findings and
recommendations.        OIG accepts DOT’s alternative actions on
recommendations 2 and 4. Therefore, all our recommendations are closed,
subject to follow-up requirements in DOT Order 8000.1C.

We appreciate the courtesies and cooperation of Department of Transportation
representatives during this audit. If you have any questions concerning this
report, please call me at (202) 366-1992 or Robin Hunt at (415) 744-3090.

                                      #
                                                                                            20




EXHIBIT A. SCOPE AND METHODOLOGY
This was a departmentwide audit of the processes to develop and issue significant
rulemaking actions. A significant rule is one that is costly (usually over
$100 million), controversial, or of substantial public interest. The audit was
conducted in the Office of the Secretary of Transportation and DOT’s Operating
Administrations in Washington, D.C.

We obtained and analyzed data for all 93 significant DOT rulemakings in process
during the first 6 months of 2003. We also reviewed DOT’s July 24, 2003 list of
withdrawn and terminated rulemakings, which included 3 rules that were on our
list of 93 rules. In this report, we recognized and took into consideration these
withdrawn rules, even though they were withdrawn after the scope of our audit.

We identified 68 rules with original or revised milestone due dates between
January 1 and June 30, 2003. For these rules, we identified (1) how many
rulemaking actions were completed on schedule, (2) how many were completed
behind schedule, and (3) how many were not completed during the 6-month
period. Our analysis included information on the length of the delays and the
reasonableness of the amount of time that DOT and its Operating Administrations
established as their goal for completion of the various rulemaking stages.

We developed a database of the 68 significant rulemaking actions. For each
rulemaking action, we determined specific steps in the rulemaking process, dates
that phases started and stopped in each specific step, amount of time in each
specific step, and overall time period each rulemaking was in process.

We performed a detailed analysis of individual rulemaking actions that missed the
mandated or estimated completion dates (47 rules) or had been in the process for a
relatively long period of time to determine how many of those rulemakings met
their scheduled milestones by the end of June 2003. We also interviewed
appropriate DOT officials in OST and seven of the Operating Administrations1 to
understand the rulemaking process throughout the Department, identify the causes
for rules being delayed, and determine the extent of officials’ use of the
rulemaking tracking system.

We analyzed the data to identify (1) the oldest significant rules, (2) the rules that
had been open 5 years or longer, and (3) the congressionally mandated rules. We
also obtained and analyzed Operating Administration data for the year ending

1
    The seven Operating Administrations were FAA, FHWA, NHTSA, FTA, FRA, RSPA, and FMCSA.


Exhibit A. Scope and Methodology
                                                                                21




October 1, 2003, to provide updated information on the number of rules issued and
the average time to issue those rules (see Table 1 on page 7). At the Office of the
Secretary’s request, we reviewed and revised our prior rulemaking data for 1993
and 1999.

We performed the audit from January through October 2003 in accordance with
Government Auditing Standards prescribed by the Comptroller General of the
United States.




Exhibit A. Scope and Methodology
                                                             22




EXHIBIT B. MAJOR CONTRIBUTORS TO THIS
REPORT
THE FOLLOWING INDIVIDUALS CONTRIBUTED TO THIS REPORT.



     Name                              Title

     Glenn Griser                      Program Director
     Robert Falter                     Project Manager
     Leroy Davis                       Project Manager
     Cindy Allen                       Management Analyst
     John Hudson                       Management Analyst
     Phil Windust                      Management Analyst
     Mike Siviy                        Management Analyst
     Petra Rose                        Senior Statistician
     Shirley Murphy                    Writer/Editor
     Seth Kaufman                      Counsel




Exhibit B. Major Contributors to This Report
                                 23




APPENDIX. MANAGEMENT COMMENTS




Appendix. Management Comment s
                                 24




Appendix. Management Comment s
                                 25




Appendix. Management Comment s
